WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-574

Joseph B. Scarnati, III, et al.

v.

Pennsylvania Democratic Party, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Armstrong County Board of Elections, Bedford County Board of Elections, Blair County Board of Elections, Centre County
Board of Elections, Columbia Board of Elections, Dauphin County Board of Elections, Fayette County Board of Elections,
Huntingdon County Board of Elections, Indiana County Board of Elections, Lackawanna County Board of Elections, Lawrence
County Board of Elections. Lebanon County of Election Montour County Board of Elections, Northumberland County of
Elections, Venango County Board of Elections, and York County Board of Elections
111

I am a member of the Bar of the Supreme Court of the United States.

11 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.*

E Meacfiam
November 24, 2020

*

Signature A / _ M 0/ilk
Date.

(Type or print) Name

Molly E. Meacham
0 Mr.

Firm

El Ms.

111 Mrs.

0 Miss

Babst Calland

Address

603 Stanwix Street

City & State
Phone

Admission effective 11/30

Pittsburgh, PA

(412) 394-5614

Zip
Email

15202

MMeacham@babstcalland.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Jason Torchinsky, John Matthew Gore

